September 3, 2004
Report No. 04-032



Strategies for Enhancing Corporate
Governance




            AUDIT REPORT
                                                    TABLE OF CONTENTS


BACKGROUND ............................................................................................................................1

GOVERNANCE DEFINED..........................................................................................................2

CORPORATE GOVERNANCE COMPONENTS AT THE FDIC ..............................................4

STRATEGIES FOR ENHANCING THE CORPORATE GOVERNANCE
FRAMEWORK......................................................................................................................................5
    Audit Committee Overview ................................................................................................5
    Audit Committee Best Practices .........................................................................................7
    Overview of Enterprise Risk Management .....................................................................10
    Determining an ERM Framework ...................................................................................11
    Lessons Learned From Others in Developing an ERM Framework ............................14
    A Model ERM Framework ...............................................................................................17
    Assessing the Current State of Internal Control.............................................................20

SUMMARY ..................................................................................................................................21

CORPORATION COMMENTS ................................................................................................21

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY ......................................22
APPENDIX II: AUDIT COMMITTEE SELF-EVALUATION TOOL..............................23
APPENDIX III: EXCERPT FROM COSO EXPOSURE DRAFT:
              ENTERPRISE RISK MANAGEMENT FRAMEWORK..............................27

TABLES:

          Table 1: National Association of Corporate Directors’ Core Recommendations
                   for Governance Practices ...................................................................................3
          Table 2: Main Areas of Audit Committee Responsibility ..............................................6
          Table 3: Audit Committee Best Practices........................................................................7
          Table 4: Insurance Companies That Implemented ERM ............................................10
          Table 5: Traditional Risk Management in Comparison to ERM................................11
          Table 6: Examples of Risk Infrastructures ...................................................................13
          Table 7: Steps for Integrating ERM...............................................................................16
Also, as a result of the Sarbanes-Oxley Act, management now must evaluate its internal
control structure over financial reporting and report on its effectiveness. In addition, auditors
must attest to management’s assertion regarding the effectiveness of those controls. Certain
financial institutions have been required to meet similar but not identical requirements
enacted by the Federal Deposit Insurance Corporation Improvement Act of 1991.2

The Federal Deposit Insurance Corporation (FDIC) currently has structures in place or in
development that address these emerging business practices. This report provides
information on audit committee best practices, ERM, and internal control over financial
reporting that can be useful in further enhancing the FDIC’s governance structure. The FDIC
Office of Inspector General (OIG) actively supports a sound governance structure.

GOVERNANCE DEFINED

Governance can be defined as the processes for managing an organization’s affairs or for
ensuring accountability. Governance can include various activities such as setting business
strategies and objectives, determining risk appetite, establishing culture and values,
developing internal policies, and monitoring performance.3

A board of directors and internal and external auditors play a key role in corporate
governance. The board reviews the development and execution of business strategies.
Auditors may identify risks and controls and confirm adherence to policies. According to
Ernst & Young, 4 some key components of effective corporate governance include the
following:

    •    An instrumental executive management team.
    •    An effective, independent board.
    •    A sound culture that allows the principles of good governance to thrive.
    •    A proactive audit committee.
    •    A compensation committee aligning executive compensation to shareholder value.
    •    A nominating committee ensuring effective governance of the board.
    •    A sound internal control framework.
    •    A relevant code of ethical behavior.
    •    Clear, enforced policies and procedures.
    •    Effective management of risk.
    •    An objective, well-resourced internal audit function.
    •    Independent, effective external audit.
    •    Transparent disclosure, effective communication, and systems that ensure effective
         measurement and accountability.



2
  Pub. L. No. 102-242.
3
  Integrity-Driven Performance, A New Strategy for Success Through Integrated Governance, Risk and
Compliance Management, PricewaterhouseCoopers, 2004.
4
  What is Corporate Governance? Corporate Governance Series, © Ernst & Young, March 2004.
                                                    2
Also, in the aftermath of major corporate failures such as Enron, the National Association of
Corporate Directors5 developed recommendations for practices in corporate governance.
Those recommendations, provided below, include some of the same components as described
above.

Table 1: National Association of Corporate Directors’ Core Recommendations for
Governance Practices
    Board of Directors should:

        •   Be composed of a substantial majority of independent directors.

        •   Consider designating an independent director as chairman or lead director.

        •   Regularly evaluate the performance of the Chief Executive Officer (CEO), other
            senior managers, the board as a whole, and individual directors.

        •   Annually review the adequacy of their company’s compliance and reporting systems.

        •   Adopt a policy of holding periodic sessions of only independent directors, providing
            board and committee members the opportunity to react to management proposals
            and/or actions in an environment free from formal or informal constraints.

        •   Be engaged with management on company strategies.

        •   Have an orientation program for new directors, and ensure that directors are current
            on company issues.

    Key committees of the Board of Directors should:

        •   Be composed entirely of independent directors, and be free to hire independent
            advisors as necessary.

        •   Have a board-approved written charter detailing the board’s duties.
    Audit committees should meet independently with both the internal and independent auditors.


Source: Recommendations from the National Association of Corporate Directors Concerning Reforms in the
Aftermath of the Enron Bankruptcy, National Association of Corporate Directors.

Although the FDIC is an independent agency of the federal government, many of the key
components of effective corporate governance may be used in the Corporation’s governance
structure. For example, a proactive audit committee, sound internal control, an ethics
program, effective risk management, and independent and objective auditors are elements
that are part of the existing structure.




5
 A national nonprofit organization established to serve the corporate governance needs of individual corporate
directors and boards.
                                                      3
CORPORATE GOVERNANCE COMPONENTS AT THE FDIC

The FDIC has similar corporate governance components as those discussed earlier. For
example, the FDIC has a Board of Directors (Board), which has an Audit Committee; a
newly established Office of Enterprise Risk Management (OERM); executive management;
and independent auditors -- the FDIC OIG and the Government Accountability Office
(GAO).6 The Board consists of five directors, three of which are appointed by the President
and confirmed by the Senate. The other directors include the Comptroller of the Currency
and the Director of the Office of Thrift Supervision (OTS).
The Board’s Audit Committee monitors the FDIC’s financial reporting responsibilities and
internal control programs. The committee also regularly meets with and discusses issues
with the OIG. The following officials compose the Audit Committee:

       •   Vice Chairman of the Board of Directors;

       •   Director, OTS; and

       •   Deputy to the Chairman and Chief Financial Officer.
OERM administers the FDIC’s Internal Control Program (ICP), which monitors risks. The
audit committee may direct OERM and appropriate divisions and offices to clarify or follow
up on specific issues and conduct special projects. Additionally, OERM conducts the
FDIC’s program to fulfill the Chief Financial Officers Act of 19907 annual reporting
requirements, including reporting on the ICP.
The OIG is another key element in the FDIC’s governance structure. The OIG, as an
independent unit, reports to the Congress and Board Chair. The OIG conducts audits and
investigations of the FDIC’s programs and operations. Also, through semiannual reports to
the Congress and other products, the OIG provides insights into the key FDIC management
and performance challenges.
Another independent audit unit is the GAO, which reports to the Congress and primarily
audits the financial statements of the funds administered by the FDIC. Additionally, the
GAO attests to the effectiveness of the Corporation’s internal control over financial reporting
and compliance and may audit other areas of interest to Congress.
Each of these components contributes to the governance structure of the FDIC. As concerns
for governance reforms have affected companies worldwide, it may be an opportune time to
examine some of the strategies developed to enhance existing structures and build proactive
risk reduction measures into business practices.




6
    The name of the GAO was changed, effective July 7, 2004, as a result of recent legislation.
7
    Pub. L. No. 101-576, codified principally to title 31, U.S.C.
                                                           4
STRATEGIES FOR ENHANCING THE CORPORATE GOVERNANCE
FRAMEWORK

Audit Committee Overview

According to the 1999 Blue Ribbon Committee on Improving the Effectiveness of Corporate
Audit Committees,8 the role of an audit committee is one of oversight and monitoring. In its
report entitled, Report and Recommendations of the Blue Ribbon Committee on Improving
the Effectiveness of Corporate Audit Committees, the Committee stated:

        … in carrying out this job it acts in reliance on senior financial management and the
        outside auditors. A proper and well-functioning system exists, therefore, when the
        three main groups responsible for financial reporting -- the full board including the
        audit committee, financial management including the internal auditors, and the
        outside auditors -- form a “three-legged stool” that supports responsible financial
        disclosure and active and participatory oversight. However, in the view of the
        Committee, the audit committee must be “first among equals” in this process, since
        the audit committee is an extension of the full board and hence the ultimate monitor
        of the process.

The Sarbanes-Oxley Act placed renewed emphasis on the role of the audit committee. The
Act requires audit committees to be independent and to assume certain oversight
responsibilities. To meet these requirements and enhance their effectiveness, organizations
have developed various practices. Based on a PricewaterhouseCoopers worldwide study of
best practices, the main areas of audit committee responsibility include oversight of financial
reporting, management of risks and internal control, and the work of external and internal
auditors. Also, audit committees need to evaluate their own performance, establish effective
working relationships with management, and monitor compliance with regulations and
ethical issues. These areas of responsibility are illustrated in more detail in Table 2 on the
next page.




8
  The panel was established in September 1998 by the New York Stock Exchange and National Association of
Securities Dealers, Inc., to make recommendations on strengthening the role of audit committees in overseeing
the corporate financial reporting process.
                                                      5
Table 2: Main Areas of Audit Committee Responsibility




    Financial                    Risk                            External audit                  Internal audit
    reporting                    management &                    • Appointment                   • Charter,
    • Appropriateness            internal                        and remuneration                authority and
    of accounting                control                         • Scope of work                 resources
    policies                     • Understanding                 • Independence                  • Scope of work
    • Disclosure                 key risk areas                  requirements                    • Internal audit
    requirements                 • Effectiveness of              • Significant audit             effectiveness
    • Fairness and               controls                        findings/                       • Responses to
    balance of                   • Fraud risk                    recommendations                 internal audit
    Management                                                   • Reviewing the                 recommendations
    Discussion and                                               performance of
    Analysis (MD&A)/                                             external auditors
    operating review
    • Generally
    Accepted
    Accounting
    Principles



       Maintaining & measuring                 Communicating &                         Regulatory, compliance
       effectiveness                           reporting                               & ethical matters
       • Training needs                        • Relations with                        • Effectiveness of
       • Maintaining financial                 management                              system for ensuring
       literacy                                • Updates &                             compliance with laws
       • Annual performance                    recommendations to                      and regulations
       evaluation of audit                     the full board                          • Code of conduct/ethics
       committee                               • Reports to board and                  • Whistleblowing
                                               shareholders




Source: Audit Committees: Good Practices for Meeting Market Expectations, © PricewaterhouseCoopers,
July 2003.




                                                           6
Audit Committee Best Practices
Some examples of audit committee best practices to consider are provided in Table 3. These
practices were adapted from Audit Committees: Good Practices for Meeting Market
Expectations, © PricewaterhouseCoopers, dated July 2003.
Table 3: Audit Committee Best Practices
 Authority

 Obtained board authority to perform activities within its terms of reference.

 Has access to members of management, employees, and relevant information, unless
 such access is restricted by law.

 Has authority to establish procedures to deal with concerns of employees and complaints
 received regarding accounting, internal control, and auditing matters.

 Membership

 The board periodically reviews the mix of experience and skills of committee members
 to maintain an appropriate balance.

 Committee members are appointed by the board or a nominating committee of the board.

 The size of the committee is appropriate to the organization.

 The experience and qualifications of committee members are compatible with the duties
 of the committee, including the ability to understand financial statements. At least one of
 the members has accounting or related financial expertise.

 Meetings

 The committee meets regularly, with special meetings called as circumstances warrant.
 (At least 3 or 4 meetings each year are desirable.)

 Meeting agendas and supporting papers are prepared and distributed sufficiently far
 enough in advance to enable committee members to prepare for meetings.

 The chairman or another member of the committee attends the board meeting at which
 the financial statements are approved.

 Members of the committee attend every meeting.

 Minutes of meetings are circulated on a timely basis to members of the board and audit
 committee (and auditors where appropriate).

                                             7
The committee meets with in-house legal counsel on a regular basis.

New committee members are provided with sufficient background information and
training to meet their responsibilities effectively.

The committee has adequate resources to discharge its responsibilities.

The Committee’s Internal Control Responsibilities

Evaluates the “control culture” established by management.

Understands the control systems implemented by management for approval of
transactions, recording of data, and compliance of the financial statements with relevant
standards and requirements.

Considers whether internal control recommendations made by auditors have been
implemented by management.

Considers how management has reviewed the adequacy of controls surrounding
electronic data processing and computer security.

The Committee’s Financial Reporting Responsibilities

Reviews the areas of greatest financial risk and management’s actions to address those
areas.

Reviews significant accounting and reporting issues and understands their likely impact
on the financial statements.

Oversees the periodic financial reporting process and reviews the interim financial
statements, annual financial statements, and preliminary announcements prior to their
release.

Meets with management and external auditors to review the financial statements and
results of the audit.

Ensures that significant adjustments, unadjusted differences, disagreements with
management, and critical accounting policies have been discussed with the external
auditor.

Considers whether the narrative information included in the other sections of the annual
report is understandable and consistent with the information in the financial statements.

Reads the representation letters given by management to the external auditors and
considers any specific representations therein.

                                            8
  The Committee’s Compliance With Laws and Regulations Responsibilities

  Reviews management’s procedures for monitoring the company’s compliance with laws
  and regulations.

  Reviews updates from management and legal counsel regarding compliance matters that
  may affect the financial statements.

  The Committee’s Responsibilities Regarding Auditors

  Discusses the auditors’ proposed audit scope and approach.

  Discusses any audit problems, including restrictions on the scope of the audit or denials
  of access to requested information.

  Reviews reports made by the auditors to management, and ensures that management
  responds to these findings.

  Meets privately with auditors on a regular basis.

  Discusses the extent to which auditing and accounting firms are used, and understands
  the rationale for their use.

  The Committee’s Reporting Responsibilities

  Reports committee activities to the board regularly.

  Ensures that reports on committee activities required by law have been prepared.

  The Committee’s Performance Evaluation Responsibilities

  Periodically assesses the performance of individual members and of the committee as a
  whole.
  Assesses the achievement of the duties specified in the charter and reports to the board.

  The Committee’s Charter

  Reviews the committee charter annually, and discusses any proposed changes with the
  board.

  Ensures the charter is approved/reapproved by the board.

We have organized these practices into an audit committee self-assessment tool in
Appendix II. The tool can be modified to reflect the specific operations of the FDIC.


                                              9
Overview of Enterprise Risk Management

As discussed earlier, risk management and internal control are in the areas of audit
committee responsibility. A practice that has emerged to identify and manage risk from a
corporate-wide perspective is ERM. Based on the 2002 benchmarking survey9 of ERM in
the insurance industry, insurance companies were implementing ERM for the reasons noted
in Table 4.

                   Table 4: Insurance Companies That Implemented ERM
                    Reason for Implementation                   Percent of Companies
                                                                That Responded*

                    Good business practice                      88
                    Provides coherent conceptual                52
                    framework to coordinate risk
                    management activity
                    Provides competitive advantage              46

                    Corporate governance guidelines             42

                   Source: Tillinghast-Towers Perrin.
                   *Eighty-two companies responded.


Essentially, ERM differs from the traditional approach to risk management as illustrated in
Table 5 on the next page.




9
 The Tillinghast-Towers Perrin survey of insurance companies discussed in its report entitled, Enterprise Risk
Management in the Insurance Industry 2002 Benchmarking Survey Report.
                                                        10
Table 5: Traditional Risk Management in Comparison to ERM
Traditional Risk Management                         ERM



Risk as individual hazards                          Risk in the context of business strategy

Risk identification and assessment                  Risk portfolio development

Focus on discrete risks                             Focus on critical risks

Risk mitigation                                     Risk optimization

Risk limits                                         Risk strategy

Risk with no owners                                 Defined risk responsibilities

Haphazard risk quantification                       Monitoring and measuring of risks

“Risk is not my responsibility”                     “Risk is everyone’s responsibility”
Source: Excerpt from “Enterprise Risk Management: What CPAs [Certified Public Accountants] Need to
Know About this Company-Wide Approach,” © Journal of Accountancy, June 2004.


Determining an ERM Framework

Organizations with experience in ERM note that implementation is not without its
challenges. For example, some of the common challenges for insurance companies include a
lack of tools for assessing, measuring, mitigating, and financing operational risks;
organizational turf; processes; and time.10

To implement an ERM program, an organization needs to decide on a framework. There are
no “right answers” for establishing a framework; however, organizations can develop four
key questions to help in establishing an ERM framework appropriate for the specific
situations and culture of the organization. These four key questions11 are as follows.

Question 1: What are the objectives for ERM? Organizations can have several objectives,
but the priority they assign to each objective is important. Some objectives include:

     •   Compliance - reacting to external guidance
     •   Defense - anticipating problems
     •   Coordination/integration – breaking down internal “silos” by coordinating risk
         management activities for the sake of efficiency
10
   RiskValueInsights: Creating Value Through Enterprise Risk Management – A Practical Approach for the
Insurance Industry, Tillinghast-Towers Perrin.
11
   Implementing Enterprise Risk Management: Getting the Fundamentals Right, Jerry Miccolis, Brinton Eaton
Associates, Inc., © International Risk Management Institute, June 2003.
                                                    11
   •   Exploiting opportunities and creating value – appreciating risk interaction across the
       enterprise

Question 2: What will be the scope of the ERM program? The following are examples of the
types of risks that may be included in an ERM program:

   •   Financial – interest rate, investment, credit, liquidity
   •   Operational – technology, political, regulatory
   •   Hazard – legal liability, property damage, natural catastrophe
   •   Strategic – poor planning and poor execution

Also, management may desire that ERM influence processes such as:

   •   Strategic planning
   •   Capital management
   •   Asset allocation
   •   Performance measurement
   •   Financial modeling

The scope of the risks and management processes need to be aligned and are likely to help
the organization achieve the ERM objectives determined in response to Question 1.

Question 3: What kind of organizational structure, based on ERM, will work for the
organization? To answer this question, consider the following:

   •   The organizational components that will be involved in managing ERM and the
       functions that will be integrated into the ERM program. Some organizations use
       existing functions, while others create new functions such as a chief risk officer
       (CRO) or ERM policy committee.

   •   The anticipated responsibilities of the ERM. Will the function serve as a coordinating
       body for the individual risk management activities or as an advisory body?

   •   The management level to which the ERM function will report. A CRO may report to
       either the Chief Executive Officer (CEO) or Chief Financial Officer (CFO), while an
       ERM committee may report to the CEO.

   •   The most important capabilities and competencies for the ERM function. The ERM
       function’s capabilities and competencies could include risk assessment, modeling,
       financial engineering, communication, organizational management, and project
       management.




                                              12
Table 6 shows examples of the risk infrastructure used by some major corporations.

Table 6: Examples of Risk Infrastructures
 Company                                       Risk Infrastructure

 J.P. Morgan Chase                             Highly organized committee structure to
                                               communicate and drive risk
                                               management considerations into
                                               operating decisions.
 E.I. du Pont de Nemours and Company           Risk management committee assists the
                                               CEO in setting risk management
                                               policies and guidelines. Committee
                                               maintains close contact with business
                                               units.
 Microsoft Corporation                         Driven by technology via Intranet and
                                               ongoing personal communication of risk
                                               management group with operating
                                               management.
 United Grain Growers Limited                  Risk management committee
 [Merged with Agricore Cooperative Ltd. on     recommends policy and process: reports
 November 1, 2001]                             to audit committee on risk management
                                               performance.
 Unocal Corporation                            Efforts of internal audit department and
                                               health, environmental, and safety
                                               department to promote enterprise-wide
                                               risk management throughout operating
                                               management.

Source: Making Enterprise Risk Management Pay Off, How Leading Companies Implement Risk Management,
Thomas L. Barton, William G. Shenkir, and Paul L. Walker, © Prentice Hall, 2002.

Question 4: What tools will the organization need to implement the ERM program? Some
possible tools include:

    •   Risk audit guides – for risk mapping of individual risks, risk assessment workshops,
        and risk assessment interviews with management and staff.
    •   Stochastic risk models – to simulate a specific system by developing cause-effect
        relationships between all the variables of that system.
    •   Risk monitoring reports – for managers, boards, and external stakeholders.

When determining the type of tools to select, organizations should consider tools that fit the
risks and processes within the scope of the ERM program.




                                                13
Lessons Learned From Others in Developing an ERM Framework

Although no single ERM model fits all organizations, a study of how large companies were
implementing ERM identified some “lessons learned” that could be used in the process of
customizing an ERM framework. The study, sponsored by the Financial Executives
Research Foundation, reviewed five major companies, including J.P. Morgan Chase and
Microsoft Corporation, identified the following 18 lessons learned.12

Lesson 1

Organizations may have difficulty identifying a “cookbook recipe” for implementing ERM
because developing an appropriate approach depends on the culture of the company and the
agents leading the effort. Decision-makers need to make sure that risk management is a
critical part of their job, and they need to be aware of the risks facing other units and the
organization as whole.

Lesson 2

Managing risk effectively requires implementing a formal initiative to identify all significant
risks. Some possible risk identification methods include scenario analysis, self-assessments,
brainstorming sessions, and team meetings.

Lesson 3

Risk identification should be dynamic and continuous because the business environment
continually changes. The risk identification process involves identifying all risks and sorting
them by importance.

Lesson 4

Determining the importance, severity, or dollar amount of risks is important to the risk
ranking process. A risk ranking component helps management understand the perceived
importance of a risk, and by sorting the risks according to importance, management can
develop a risk management strategy and allocate resources efficiently.

Lesson 5

“Risks should be ranked on some scale of frequency or probability.” One company lists risks
and rates them on probability, while another company assigns a frequency to each risk.
Tools such as risk lists help management develop a view of all the risks and those that are
most significant.



12
  Making Enterprise Risk Management Pay Off, How Leading Companies Implement Risk Management,
Thomas L. Barton, William G. Shenkir, and Paul L. Walker, © Prentice Hall, 2002.


                                                14
Lesson 6

Financial risks should be measured with the most sophisticated and relevant tools available.
Risk measurement helps ensure that the organization is not spending resources on the least
risky areas. Organizations face a challenge in this area because not all risks are measurable.
For example, operational risk management is in the early stages, so there may not be a lot of
historical information to use as a baseline. Sharing best practices is a possible approach.

Lesson 7

“Develop sophisticated tools and measures that meet the organization’s needs and that
management can easily understand.” The most developed area of risk measurement is the
financial risk area. Various tools such as value at risk (VAR) are available to assist in
measuring financial risk. VAR measures the worst expected loss over a given time period
and was originally developed for use in financial institutions. Other methods include
earnings at risk (EAR) and stress testing. EAR measures the impact of risks on earnings, and
stress testing involves reviewing the impact of worst-case scenarios.

Lesson 8

Understand the organization’s risk appetite. Risk appetite concerns the amount of risk that
the company is willing to accept. Knowing the amount of risk the company is willing to
accept and having a measure of how that risk affects areas such as earnings permit managers
to understand the relationship between risk and achieving expectations.

Lesson 9

Thoroughly measure nonfinancial risks. As noted earlier, measuring operational risks is new
and is not as advanced as measuring financial risks. Recognizing that operational risks are
important, some companies are engaged in sharing best practices in this area and developing
metrics. Also, techniques used in measuring financial risks may be adopted for operational
risk measurement. Risk profiles and worst-case scenario possibilities are examples of
techniques that may be adapted to operational risk measurement.

Lesson 10

“Companies are choosing different combinations of acceptance, transfer, and mitigation13 to
manage risk.” The organization’s willingness to accept risks may influence the approach to
managing risks. For example, an organization can accept a risk if management determines
that the organization can bear the consequences or the risk has been mitigated or has been
transferred to a level that the company is willing to accept.




13
     An organization may build controls to mitigate a risk.
                                                          15
Lesson 11

Reevaluate decisions regarding control, acceptance, and transfer of risk on a continuous
basis. Building control is a form of mitigating risks. Companies that identify risks evaluate
the controls to mitigate higher priority risks and implement continuous monitoring to detect
potential problems.

Lesson 12

Identify original solutions and transfer risk where economic opportunities exist. Companies
may use a combination of acceptance, transfer, and mitigation strategies. Also, companies
may link risk management to employee incentives. This approach reinforces the importance
of managing risk.

Lesson 13

View risk management from an enterprise-wide perspective. An enterprise-wide view
permits the entity to identify inconsistencies in the level of risks management was taking and
determine whether a small group of risks have a major influence. In addition, opportunities
for savings may be identified.

Some steps for integrating risk management into the organization’s processes are identified
in Table 7.

Table 7: Steps for Integrating ERM
Step     Action                                                  Methods
1        Determine all significant risks.                        List risks, assess risks, map
                                                                 risks
2         Measure risk, and integrate best practices and         VAR, EAR, and stress
          tools                                                  testing


3         Conduct research throughout the organization           Search for
                                                                    • Inconsistencies
                                                                    • Natural offsets
                                                                    • Transfer/financing
                                                                        opportunities
Source: Making Enterprise Risk Management Pay Off, How Leading Companies Implement Risk Management,
Thomas L. Barton, William G. Shenkir, and Paul L. Walker, © Prentice Hall 2002.




                                                16
Lesson 14

Permit consultants to only supplement senior management involvement in the risk
management effort. Consultants are used to provide information on how other companies
manage specific risks and to provide data on incidents.

Lesson 15

ERM can offer more effective risk management than traditional approaches. Upon
developing the proper strategy, ERM enables organizations to control their risks with greater
efficiency than traditional approaches involving organizational “turf” issues.

Lesson 16

“Making risk consideration a part of the decision-making process is an essential element to
enterprise-wide risk management.” Companies link risk management and business strategy
and use the Intranet to integrate risk management and everyday business management.

Lesson 17

Risk management infrastructures are important for ensuring that decision-makers consider
risks. One approach is to use a committee structure to integrate risk management into
operations. Other examples were discussed in Table 6.

Lesson 18

The commitment of champions at the senior management level is a prerequisite for
implementing ERM. ERM succeeds when senior management commits to the program.
Senior management commitment is critical because the integration process requires a
balancing of various interests and skills.

A Model ERM Framework

To provide some insights into a viable ERM framework, the Committee of Sponsoring
Organizations of the Treadway Commission (COSO) issued a draft ERM framework. The
COSO defines ERM as:

       … a process, effected by an entity’s board of directors, management and other
       personnel, applied in strategy setting and across the enterprise, designed to identify
       potential events that may affect the entity, and manage risks to be within its risk
       appetite, to provide reasonable assurance regarding the achievement of entity
       objectives.




                                              17
In effect, ERM reflects certain fundamental concepts. Specifically, ERM:
    • Is a process.
    • Is effected by people.
    • Is applied in a strategy setting.
    • Is applied across the enterprise.
    • Is designed to identify potential events and manage risk within a risk appetite.
    • Provides reasonable assurance.
    • Is geared to achieving objectives.

A discussion on each of these concepts is provided in Appendix III.

Components of the COSO ERM Framework

According to the COSO framework, ERM consists of eight interrelated components: internal
environment, objective setting, event identification, risk assessment, risk response, control
activities, information and communication, and monitoring. These components are derived
from the way management runs a business and are integrated with the management process.
The COSO draft ERM framework identifies the components as follows.

Internal Environment

The internal environment is the foundation for all other components and influences how a
strategy and objectives are established. The board of directors is a critical component of the
internal environment and influences other elements such as the entity’s ethical values,
competence and development of personnel, and management’s operating style. Also, as part
of the internal environment, management establishes a risk management philosophy and
integrates risk management with related initiatives.

Objective Setting

Management establishes strategic objectives within the context of an established mission or
vision and establishes related objectives. ERM provides assurance that management has a
process to set objectives consistent with the entity’s risk appetite and align the objectives
with the entity’s mission/vision.

Event Identification

Event identification involves considering external and internal factors that affect the
occurrence of an event. External factors may include economic, business, natural
environment, or political factors. Internal factors include issues such as infrastructure,
personnel, process, and technology. Potential events may be grouped into categories to assist
management in understanding their interrelationship. Risk is the possibility that an event will
occur and adversely affect the achievement of objectives.




                                              18
Risk Assessment

Risk assessment involves considering how potential events may impact the achievement of
objectives, and the risk assessment methodology may involve a combination of qualitative
and quantitative techniques. Some examples include benchmarking and conducting
interviews and workshops. Determining the proper technique depends on factors such as the
need for precision and the culture of the business unit.

Risk Response

ERM requires management to select a response that is expected to reduce risk to the entity’s
risk tolerance level. Risk responses include risk avoidance, reduction, sharing, and
acceptance. The COSO draft ERM framework explains these terms as follows:

       Avoidance responses take action to exit the activities that give rise to the risks.
       Reduction responses reduce the risk likelihood, impact, or both. Sharing responses
       reduce risk likelihood or impact by transferring or otherwise sharing a portion of the
       risk. Acceptance responses take no action to affect likelihood or impact. As part of
       enterprise risk management, for each significant risk, an entity considers potential
       responses from a range of response categories. This gives sufficient depth to
       response selection and also challenges the “status quo.”

Control Activities

Control activities occur throughout the organization and are the policies and procedures that
assist management in ensuring that risk responses are properly executed. The policies
establish what should be done, and the procedures effect the policy.

Information and Communication

Information from internal and external sources involves collecting information and
communicating that data to personnel in a manner that enables them to conduct their
responsibilities. Communication is effective when it flows down, across, and up the
organization. Communication can also occur with external parties such as customers and
suppliers.

Monitoring

Monitoring involves evaluating whether the ERM components are present and functioning.
Monitoring also involves assessing the quality of components’ performance over time.
Management can implement a monitoring program through ongoing activities or separate
evaluations. Both methods help ensure that ERM is applied at all levels and across the
organization.




                                              19
Assessing the Current State of Internal Control

Another area receiving increased attention as a result of the Sarbanes-Oxley Act is internal
control over financial reporting. An emerging practice that is being used to evaluate the
current state of an organization’s internal control over financial reporting is the internal
control maturity framework.

The primary objective of the internal control maturity framework is to determine whether
existing or proposed controls for activities and processes adequately manage related risks and
are documented to facilitate review. The hierarchy for categorizing the maturity levels of
controls is provided in The Sarbanes-Oxley Act of 2002, Strategies for Meeting New Internal
Control Reporting Challenges: A White Paper, PricewaterhouseCoopers, and is presented as
follows.

Level 1: Unreliable

   •   Unpredictable environment in which controls are not designed or in place.

Level 2: Informal

   •   Controls are designed and in place but are not adequately documented.
   •   Controls are mostly dependent on people.
   •   No formal training program is in place.
   •   No formal training or communication of controls.

Level 3: Standardized

   •   Controls are designed and in place.
   •   Controls have been documented and communicated to employees.
   •   Deviations from controls may not be detected.

Level 4: Monitored

   •   Standardized controls with periodic testing for effective design and operation with
       reporting to management.
   •   Automation and tools may be used in a limited way to support controls.




                                              20
Level 5: Optimized

   •   An integrated internal control framework has been established with real-time
       monitoring by management with continuous improvement (Enterprise-Wide Risk
       Management).
   •   Automation and tools are used to support controls and allow the organization to make
       rapid changes to the controls if needed.

The maturity framework can assist CFOs in evaluating whether the level of maturity for a
given control area is satisfactory or whether additional action is needed.

SUMMARY
In light of the recent scandals that have caused the failure of several major corporations,
reforms have been initiated by the Congress and regulatory organizations. Also, new
strategies have been developed to respond to these reforms and the public demand for
improved corporate governance and accountability. Federal agencies have the opportunity to
develop sound corporate governance structures and lead by example. The FDIC is in a
particularly unique position because it already has key governance components. The
Corporation has an audit committee, ERM program, and independent auditors. The
information in this report is intended to assist the Corporation in reviewing current practices
and programs and determining the need for enhancements.

CORPORATION COMMENTS

A written response was not required for the report. OERM advised the OIG that it had no
official comments.




                                              21
                                                                            APPENDIX I

                    OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our research was to provide information that may be used in evaluating
approaches for enhancing some key elements of the corporate governance framework – the
audit committee, risk management, and internal control over financial reporting. To achieve
our objective, we searched the following for best practices and information related to our
topic: the Internet, prior GAO reports, trade journals and magazines, private sector studies,
pronouncements from authoritative sources, and other resources issued within the last 2 years
with a particular focus on information pertaining to financial organizations. Also, we
researched recent case studies and information on the challenges other organizations faced
and the lessons they learned when implementing an ERM program. Our work was conducted
from June to July 2004 in accordance with generally accepted government auditing
standards.




                                             22
                                                                                            APPENDIX II


                         AUDIT COMMITTEE SELF-EVALUATION TOOL
              Adapted from Audit Committees: Good Practices for Meeting Market Expectations,
                                   ©PricewaterhouseCoopers, July 2003


Section No.                 Audit Committee Practice                       Practice Being     Action Item
 of Charter                                                                   Followed
                                                                            (Yes/No/N/A)

                Authority
                Obtained board authority to perform activities within
                the audit committee’s terms of reference.

                Has access to members of management, employees,
                and relevant information, unless such access is
                restricted by law.

                Has authority to establish procedures to deal with
                concerns of employees and complaints regarding
                accounting, internal control, and auditing matters.

                Membership
                The board periodically reviews the mix of experience
                and skills of committee members to maintain an
                appropriate balance.

                Committee members are appointed by the board or a
                nominating committee of the board.

                The size of the committee is appropriate to the
                organization.

                The experience and qualifications of committee
                members are compatible with the duties of the
                committee, including the ability to understand financial
                statements. At least one of the members has
                accounting or related financial expertise.


                Meetings
                The committee meets regularly, with special meetings
                called as circumstances warrant. (At least three or four
                meetings each year are desirable.)

                Meeting agendas and supporting papers are prepared
                and distributed sufficiently far enough in advance to
                enable committee members to prepare for meetings.

                Minutes of meetings are circulated on a timely basis to
                members of the board and audit committee (and
                auditors where appropriate).

                The chairman or another member of the committee
                attends the board meeting at which the financial
                statements are approved.


                                                         23
                                                                                       APPENDIX II


Section No.               Audit Committee Practice                    Practice Being     Action Item
 of Charter                                                              Followed
                                                                       (Yes/No/N/A)


              Members of the committee attend every meeting.

              The committee meets with in-house legal counsel on a
              regular basis.

              New committee members are provided with sufficient
              background, information, and training to meet their
              responsibilities effectively.

              The committee has adequate resources to discharge
              its responsibilities.

              Internal Control
              Evaluates the “control culture” established by
              management.

              Understands the control systems implemented by
              management for approval of transactions, recording
              of data, and compliance of the financial statements
              with relevant standards and requirements.

              Considers whether internal control recommendations
              made by auditors have been implemented by
              management.

              Considers how management has reviewed the
              adequacy of controls surrounding electronic data
              processing and computer security.

              Financial Reporting
              Reviews the areas of greatest financial risk and
              management’s actions to address those areas.

              Reviews significant accounting and reporting issues
              and understands their likely impact on the financial
              statements.

              Oversees the periodic financial reporting process and
              reviews the interim financial statements, annual
              financial statements, and preliminary announcements
              prior to their release.

              Meets with management and external auditors to
              review the financial statements and results of the
              audit.


              Ensures that significant adjustments, unadjusted
              differences, disagreements with management,
              and critical accounting policies have been discussed
              with external auditor.

              Considers whether the narrative information included
              in the other sections of the annual report is


                                                       24
                                                                                         APPENDIX II


Section No.               Audit Committee Practice                      Practice Being     Action Item
 of Charter                                                                Followed
                                                                         (Yes/No/N/A)

              understandable and consistent with the information in
              the financial statements.

              Reads the representation letters given by
              management to the external auditors and considers
              any specific representations therein.

              Compliance with Laws and Regulations
              Reviews management’s procedures for monitoring the
              organization’s compliance with laws and regulations.

              Reviews updates from management and legal counsel
              regarding compliance matters that may affect
              the financial statements.

              Responsibilities Regarding Auditors
              Discusses the auditors’ proposed audit scope and
              approach.

              Discusses any audit problems, including restrictions on
              the scope of the audit or denials of access to
              requested information.

              Reviews reports made by the auditors to management,
              and ensures that management responds to these
              findings.

              Meets privately with auditors on a regular basis.

              Discusses the extent to which audit and accounting
              firms are used and understands the rationale for using
              them.

              The Committee’s Reporting
              Responsibilities
              Reports committee activities to the board regularly.

              Ensures that any reports required by law concerning
              committee activities have been prepared.

              Evaluating Performance

              Periodically assesses the performance of individual
              members and the committee as a whole.


              Assesses the achievement of the duties specified in
              the charter and reports to the board.


              Charter
              Reviews the committee charter annually, and
              discusses any proposed changes with the board.



                                                       25
                                                                                   APPENDIX II


Section No.              Audit Committee Practice                 Practice Being     Action Item
 of Charter                                                          Followed
                                                                   (Yes/No/N/A)

              Ensures the charter is approved/reapproved by the
              board.




                                                    26
                                                                            APPENDIX III

            EXCERPT FROM COSO EXPOSURE DRAFT: ENTERPRISE
                     RISK MANAGEMENT FRAMEWORK

A Process

Enterprise risk management is not one event or circumstance, but a series of actions that
permeate an entity's activities. These actions are pervasive and inherent in the way
management runs the business.

Enterprise risk management is different from the perspective of some observers who view
it as something added on to an entity's activities, or as a necessary burden. That is not to
say effective enterprise risk management does not require incremental effort. For
instance, risk assessment may require incremental effort to develop needed models and
make necessary analysis and calculations. However, these and other enterprise risk
management mechanisms are intertwined with an entity's operating activities and exist
for fundamental business reasons. Enterprise risk management is most effective when
these mechanisms are built into the entity's infrastructure and are part of the essence of
the enterprise. By building in enterprise risk management, an entity can directly affect its
ability to implement its strategy and achieve its vision or mission.

Building in enterprise risk management also has important implications for cost
containment, especially in the highly competitive marketplaces many companies face.
Adding new procedures separate from existing ones adds costs. By focusing on existing
operations and their contribution to effective enterprise risk management, and integrating
risk management into basic operating activities, an enterprise can avoid unnecessary
procedures and costs. And a practice of building enterprise risk management into the
fabric of operations helps identify new opportunities for management to seize in growing
the business.

Effected by People
Enterprise risk management is effected by a board of directors, management and other
personnel. It is accomplished by the people of an organization, by what they do and say.
People establish the entity's mission/vision, strategy and objectives and put enterprise risk
management mechanisms in place.

Similarly, enterprise risk management affects people's actions. Enterprise risk
management recognizes that people do not always understand, communicate or perform
consistently. Each individual brings to the workplace a unique background and technical
ability, and has different needs and priorities.

These realities affect, and are affected by, enterprise risk management. Each person has a
unique point of reference which influences how they identify, assess and respond to risk.
Enterprise risk management provides the mechanisms needed to help people understand
risk in the context of the entity’s objectives. People must know their responsibilities and



                                           27
                                                                            APPENDIX III

limits of authority. Accordingly, a clear and close linkage needs to exist between
people's duties and the way in which they are carried out, as well as with the entity's
strategy and objectives.

An organization’s people include the board of directors, as well as management and other
personnel. Although directors primarily provide oversight, they also provide direction
and approve strategy and certain transactions and policies. As such, boards of directors
are an important element of enterprise risk management.

Applied in Setting Strategy
An entity sets out its mission or vision and establishes strategic objectives, which are the
high-level goals that align with and support its vision or mission. An entity establishes a
strategy for achieving its strategic objectives. It also sets related objectives it wants to
achieve, flowing from the strategy, cascading to business units, divisions and processes.
In setting strategy, management considers risks relative to alternative strategies.

Applied Across the Enterprise
To successfully apply enterprise risk management, an entity must consider its entire
scope of activities. Enterprise risk management considers activities at all levels of the
organization, from enterprise-level activities such as strategic planning and resource
allocation, to business unit activities such as marketing and human resources, to business
processes such as production and new customer credit review. Enterprise risk
management also applies to special projects and new initiatives that might not yet have a
designated place in the entity’s hierarchy or organization chart.

Enterprise risk management requires an entity to take a portfolio view of risk. This might
involve each manager responsible for a business unit, function, process or other activity
developing an assessment of risk for the unit. The assessment may be quantitative or
qualitative. With a composite view at each succeeding level of the organization, senior
management is positioned to make a determination whether the entity’s overall risk
profile is commensurate with its risk appetite.

Management considers interrelated risks from an entity-level portfolio perspective.
Interrelated risks need to be identified and acted upon to bring the entirety of risk within
the entity’s risk appetite. Risks for individual units of the entity may be within the units’
risk tolerances, but taken together may exceed the risk appetite of the entity as a whole.
The overall risk appetite is reflected downstream in an entity through risk tolerances
established for specific objectives.
Risk Appetite
Risk appetite is the amount of risk an entity is willing to accept in pursuit of value.
Entities often consider risk appetite qualitatively, with such categories as high, moderate
or low, or they may take a quantitative approach, reflecting and balancing goals for
growth, return and risk.

                                            28
                                                                              APPENDIX III

Risk appetite is directly related to an entity’s strategy. It is considered in strategy setting,
where the desired return from a strategy should be aligned with the entity’s risk appetite.
Different strategies will expose the entity to different risks. Enterprise risk management,
applied in a strategy setting, helps management select a strategy consistent with the
entity’s risk appetite.

The entity’s risk appetite guides resource allocation. Management allocates resources
across business units with consideration of the entity’s risk appetite and individual
business unit’s strategy for generating a desired return on invested resources.
Management considers its risk appetite as it aligns its organization, people and processes,
and designs infrastructure necessary to effectively respond to and monitor risks.

Risk tolerances are the acceptable level of variation relative to the achievement of
objectives. In setting specific risk tolerances, management considers the relative
importance of the related objectives and aligns risk tolerances with its risk appetite.
Operating within risk tolerances provides management greater assurance that the entity
will remain within its risk appetite and, in turn, provides a higher degree of comfort that
the entity will achieve its objectives.

Provides Reasonable Assurance

Well-designed and operated enterprise risk management can provide management and the
board of directors reasonable assurance regarding achievement of an entity's objectives.
As a result of enterprise risk management determined to be effective, in each of the
categories of entity objectives, the board of directors and management gain reasonable
assurance that:

    •   They understand the extent to which the entity’s strategic objectives are being
        achieved,
    •   They understand the extent to which the entity's operations objectives are being
        achieved,
    •   The entity’s reporting is reliable, and
    •   Applicable laws and regulations are being complied with.

Reasonable assurance reflects the notion that uncertainty and risk relate to the future,
which no one can predict with certainty. Limitations also result from the realities that
human judgment in decision making can be faulty, decisions on risk responses and
establishing controls need to consider the relative costs and benefits, breakdowns can
occur because of human failures such as simple errors or mistakes, controls can be
circumvented by collusion of two or more people, and management has the ability to
override enterprise risk management decisions. These limitations preclude a board and
management from having absolute assurance that objectives will be achieved.




                                             29
                                                                         APPENDIX III

Achievement of Objectives

Effective enterprise risk management can be expected to provide reasonable assurance of
achieving objectives relating to the reliability of reporting and to compliance with laws
and regulations. Achievement of those categories of objectives is within the entity’s
control and depends on how well the entity’s related activities are performed.
However, achievement of strategic and operations objectives is not always within the
entity's control. For these objectives, enterprise risk management can provide reasonable
assurance only that management and the board, in its oversight role, are made aware, in a
timely manner, of the extent to which the entity is moving toward achievement of the
objectives.




                                          30
